          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Nuclear Detection Devices




DOE/IG-0720                         February 2006
Homeland Security should be coordinated with parallel or similar research sponsored by the
Department. For example, Headquarters, site office and laboratory personnel we contacted
were knowledgeable about Department of Energy-sponsored research activities being
conducted at the various laboratories. However, the Department had not developed procedures
for nor required reporting Homeland Security-funded research to Headquarters or any other
central entity. As a result, neither the Department nor Homeland Security, which is responsible
for integrating nuclear and radiological detection capabilities across Federal agencies, had a
complete inventory of relevant research being conducted at the national laboratories. In our
judgment, such an inventory, if properly used, is an essential tool for planning and budgeting
resources, in order to:
   •   avoid unnecessary research duplication;
   •   direct scarce research dollars to the most promising technologies; and,
   •   allocate research funding to the laboratory having appropriate expertise in the
       technology under study.
                                  Nuclear Detection Activities
To determine the scope of nuclear detection activities at the Department's national laboratories,
we requested an inventory from both Departmental and Homeland Security officials; however,
neither could provide complete information. Officials within the Department commented that,
although they were knowledgeable about the Department's activities, there was no central
repository where comprehensive nuclear detection information was maintained. Homeland
Security officials also advised us that they did not have a complete inventory of nuclear and
radiological detection research and development at the Department of Energy's laboratories.
As a result we had to obtain the necessary information on a "piece meal" basis from numerous
headquarters and laboratories officials. Thus, there is no assurance that the data we collected is
complete and comprehensive.
The audit results clearly confirmed, however, that the six national laboratories included in our
review were conducting large amounts of radiation detection research and development for
both the Department and Homeland Security. The following table shows how the $100 million
spent by the Department and Homeland Security was distributed among the six laboratories
during FY 2004.

                        Radiation Detection R&D at DOE Laboratories
                                      Fiscal Year 2004
                                         (in millions)
           Laboratory               DOE-Funded           DHS-Funded       Total
         Brookhaven                              $ 1.4         $ 2.1         $ 3.5
         Los Alamos                               17.7              0          17.7
         Oak Ridge                                15.0            2.7          17.7
         Sandia                                    1.7            5.3           7.0
         Lawrence Livermore                        2.4           11.7          14.1
         Pacific Northwest                         5.8         38.8           44.6
         Total                                   $44.0        $60.6         $104.6
                                             2
As shown in the table, in FY 2004, the Pacific Northwest National Laboratory was responsible
for the largest amount of nuclear detection work. Although we limited our review to the six
national laboratories, there were other Departmental entities involved in the process. For
example, nuclear detection work was in process at the Nevada Test Site.

                                     Centralized Inventory

The establishment and maintenance of a centralized inventory of radiation detection research at
the national laboratories is needed by the Department to support ongoing coordination efforts
by Homeland Security. Both the Department and Homeland Security officials agreed that a
centralized inventory would assist in the integration of nuclear radiological detection
capabilities across Federal agencies and help develop a national nuclear detection system. In
furtherance of this goal, we provided Department officials with the inventory of radiation
detection projects at the national laboratories compiled during the audit.

Both Department and Homeland Security officials advised that the Domestic Nuclear
Detection Office (DNDO), established in April 2005 at the direction of the President would,
among other things, coordinate radiation detection research efforts with the Department and
other agencies. Specifically, the role of the DNDO is to establish a global nuclear detection
architecture. The Department is responsible for supporting the Office's coordination efforts
and, according to senior officials, planned to provide at least eleven Departmental personnel to
help staff the Office on a full time basis. We believe that providing resources to the DNDO is
a positive, initial step towards achieving necessary program coordination and integration
between the two agencies.

                                         Coordination

During the course of this audit, we met with the Department's senior liaison to the DNDO to
determine if there are mechanisms to facilitate coordination between the two organizations.
The representative advised that there has been frequent interaction with DNDO, however, the
coordination process is evolving and that as the need arises, policy and procedures will be
implemented. The representative acknowledged that there are a number of issues that need to
be resolved between the Department and DNDO. For example, there have been some conflicts
regarding research and development priorities at the Department's laboratories. There is
currently no established policy on the matter and conflicts have been resolved on a case by
case basis. The representative also advised that he is amenable to suggestions to improve
coordination with the DNDO and Homeland Security as a whole.

Although substantial funds have already been spent in the pursuit of new and improved nuclear
detection devices, significant future funding is anticipated, making it especially important to
promptly address the issues raised in this report. Specifically, it became clear during our audit
that without improved coordination, the United States may not fully realize the full benefit of
the research and development resources it has dedicated to nuclear detection mechanisms.

RECOMMENDATION

We recommend that the Department establish formal procedures to coordinate radiation
detection research being conducted by the national laboratories, regardless of funding source.
                                             3
This should include, among other things, the establishment of a central inventory of such
research projects, and policy and procedures for resolving programmatic conflicts between
DNDO and the Department.

MANAGEMENT REACTION

On December 14, 2005, we discussed our conclusions, observations, and recommendations
with the Deputy Under Secretary for Counterterrorism who agreed to pursue implementation of
our recommendation with the DNDO.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Deputy Under Secretary for Counterterrorism, NNSA
    Chief of Staff
    Director, Policy and Internal Controls Management, NA-66




                                           4
                                                                              Attachment



SCOPE AND METHODOLOGY

The audit was performed between March 2005 and February 2006 at the Department of Energy
in Washington, DC; Sandia National Laboratories in Albuquerque, NM; Los Alamos National
Laboratory in Los Alamos, NM; and the Pacific Northwest National Laboratory in Richland,
Washington. We requested nuclear detection information from three additional laboratories:
Lawrence Livermore National Laboratory, Oak Ridge National Laboratory, and Brookhaven
National Laboratory.

To accomplish the audit objective, we:

      Reviewed policies and procedures governing nuclear detection activities;

      Interviewed Departmental Headquarters officials concerning nuclear detection devices;

      Interviewed Department of Energy and contractor officials at Sandia National
       Laboratories, Los Alamos National Laboratory, and Pacific Northwest National
       Laboratory;

      Analyzed nuclear detection information from the five nuclear weapons laboratories,
       Brookhaven, and Headquarters; and,

      Reviewed performance measures established in accordance with Government
       Performance and Results Act.

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We did not rely extensively on computer processed data.
                                                            IG Report No. DOE/IG-0720



                          CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date ______________________________

Telephone                                     Organization _______________________


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
